No.

IN THE
SUPREME COURT OF THE UNITED STATES

Bobby Campbell Jr
(Your Name)

— PETITIONER

VS.
Bottling Group LLC

— RESPONDENT(S)

PROOF OF SERVICE
j Bobby Campbell Jr
February 11

________________ , do swear or declare that on this date,
, 20_21_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Pepsi Beverages Company PepsiCo Inc. 700 Anderson Hill Rd Purchase, NY 10577
Bottling Group LLC 700 Anderson Hill Rd Purchase, NY 10577

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Februaryjl 1

,20.21

y*

9*

OFFICE OF THE CLERK
THE UNITED STATES SUPREME COURT
Court Address:
1 First Street, NE
Washington, D. C. 20543
BOBBY CAMPBELL JR.
Plaintiff / Appellant
v.
BOTTLING GROUP LLC.
Defendant / Appellee

Case / Docket No.

[ABOVE FOR COURT USE ONLY]

Affidavit of Bobby Campbell Jr.

State of Colorado
SS.
County of Boulder
BEFORE ME, the undersigned Notary Public, personally appeared Bobby Campbell Jr.,
who makes the following statement and affidavit upon oath and affirmation of belief and
personal knowledge that the following matters, facts, and things set forth are true and correct to
the best of his or her knowledge:
1.

My name is Bobby Campbell Jr., and I currently reside in the state of Colorado in Weld
County.

2.

I am either over the age of 18 or a legally emancipated minor.

3.

I am Plaintiff Pro Se in this legal proceeding.

4.

Attached to this document are copies of Petition for A Writ of Certiorari with Appendix.

S.

Attached to this Affidavit is Motion for Leave to Proceed In Forma Pauperis.

6.

This document is being served to Respondent located at 700 Anderson Hill Road
Purchase, NY 10577.

7.

A copy of this Affidavit will be filed with the Office Of The Clerl

-eme

FEB 2 6 2021
supreme"cBIi?

tr/

V1
A
1'

I declare under penalty of perjury under the laws of the State of New York that the foregoing is
true and correct.
-----Date:
mnf lig^atun

Notary Public
STATE OF COfcORADO,
COUNTY OF
<________
On this the C\ day of pfJoy OCpSff ~Zi , the foregoing instrument was sworn to (or affirmed) and
subscribed before me by Bobby Campbell Jr., known or proven to me to be the person whose name is
subscribed to the within instrument.
ITNESS my hand'and officiahseal.

{l lAmpttto IS1

[Affix seal]
(Si;
ire)
NOTARY PUBLIC
*=> (o^|“ZJb7>|
My Commission Expires: _J,

(

VANESSA GARCIA BUENO
NOTARY PUBLIC - STATE OF COLORADO
NOTARY ID 20164037764
MY COMMISSION EXPIRES OCT 3, 2024

